                                CLOSEOUT FOR M-95070031
        On 28 July 1995, OIG learned of three allegations of misconduct in science.' First. it was
alleged that subject #12 misrepresented the research effort of a former graduate student when he
made him second author on a published paper.3 This first paper was allegedly an edited version of
the graduate student's Master's thesis4 on which subject #1 had listed himself as the first of three
authors and which did not cite the thesis. The third author, subject #2,' was considered a subject
by OIG because his role in the research and publication of the first paper was unknown. Second.
it was alleged that subject #1 plagiarized three sentences fiorn the student's thesis into a second
paper.6 Third, OIG observed that the thesis contained several tables of data that had been
reproduced in the first paper. However, some of the data in the apparently copied tables had been
changed in the paper. There was no indication in the paper why the changes were made. This
suggested that these changed data may have been falsified in the first paper. The work presented
in the two papers and the thesis was supported by NSF.'

         The student described his relationship with subject #I as significantly worsening when he
was writing his thesis because subject #1 was never satisfied with the drafts he prepared. Subject
$1 requested repeated revisions and provided numerous comments. The student said that he
finally provided subject #1 with a finished copy of his thesis and left the institution disgusted. He
did not provide either subject with his forwardhg address. When asked about the differences
observed between data in the first paper and his thesis, the student said he thought these were the
results of either corrections of errors made in his thesis or re-analyses of some of the data.

        In response to OIG queries, subject #1 explained that the first paper contained text copied
from the student's thesis as well as two additional pages of his own work. Subject #1 said he did
not cite the thesis in the first .paper because he did not view theses as valid scientific publications;
they were not readily available to other scientists and they did not go through the normal scientific
review process. He explained that, previously, his students were first authors on articles when
they were writing about their theses' research'and the theses were not cited in the article. He




                                           Page 1 of 2                                        M95-3I
                                   CLOSEOUT FOR M-95070031
    explained that, in this case, he planned the research project, wrote most of the thesis and
'
    submitted the paper for publication. Subject #1 confirmed that the student did not provide a
    forwarding address after he left the institution. In addition, his description of the preparation of
    the thesis drafts was similar to the student's account. Subject #2 explained that he had provided
    the original samples for the study and had assisted in the revision of the first paper. Further,
    subject #2 said that he had noticed the student was second author, but did not ask subject #1 why.

            OIG requested that an NSF program officer, who was an expert in the subjects' field of
    science, provide an opinion on allegation # l . The program officer concluded that "once stripped
    of the ill will of the student and the arrogance of the advisor," the matter was not serious.
    Further, the program officer said that subject #2 had done his job appropriately. OIG agreed
    with the program officer's assessment. The student had a responsibility to maintain professional
    contact with subject #l. Subject #1 should have (1) afforded each author the opportunity to
    participate in the production and review of the manuscript and (2) cited the thesis as a source
    document for much of the work in the first paper. We concluded that subject #1 deviated fiom
    accepted practice, but that his action was not a serious deviation and therefore it did not rise to
    the level of misconduct in science. However, subject #l's failure to cite the thesis in the first
    paper introduced an error in the research record. OIG suggested that subject #I submit a
    correction to the journal editor. OIG concluded that subject #2 had not acted inappropriately as a
    co-author.

            Regarding allegation #2, subject #1 explained that the three verbatim sentences in the
    second paper were from the thesis, but that he had used these same sentences in the first paper on
    which both he and the student were co-authors. He said that he often took passages directly fiom
    his earlier publications. OIG noted that the thesis was cited in the second paper, but not in
    connection with the verbatim sentences. OIG determined that subject #1 deviated from accepted
    practice when he used these sentences in the second paper without either placing them in
    quotation marks or offsetting them and acknowledging their source because he had not cited the
    origin of these sentences in the first paper. However, because subject #1 and the student were co-
    authors on the first paper, subject #1 did not seriously deviate from accepted practice and this
    action was not misconduct in science.

            With respect to allegation #3, subject #1 explained that differences observed between
    some of the data in the thesis and the first paper were either the results of 1) corrections in the
    original thesis data, 2) the application of different statistical parameters in the first paper, or 3)
    errors in the published data. OIG determined that the explanations provided by subject #1 were
    either substantiated from the available evidence, or involved minor differences in the third figure
    of data points. Subject #2 said that all he knew about these data was that subject #I had told him
    the differences were the result of errors in the thesis. OIG determined that allegation #3 had no
    substance.

           This inquiry was closed and no hrther action will be taken.

    cc:    Staff Scientist, Attorney, Acting Deputy AIG-Oversight, AIG-Oversight, IG


                                             Page 2 of 2
